<html>
<title> - U.S. SECRET SERVICE: ACCOUNTABILITY FOR MARCH 4, 2015 INCIDENT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




    U.S. SECRET SERVICE: ACCOUNTABILITY FOR MARCH 4, 2015 INCIDENT

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 14, 2015

                               __________

                           Serial No. 114-31

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]








         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-421 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001                    
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, Jr., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              MATT CARTWRIGHT, Pennsylvania
CYNTHIA M. LUMMIS, Wyoming           TAMMY DUCKWORTH, Illinois
THOMAS MASSIE, Kentucky              ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDA L. LAWRENCE, Michigan
RON DeSANTIS, Florida                TED LIEU, California
MICK MULVANEY, South Carolina        BONNIE WATSON COLEMAN, New Jersey
KEN BUCK, Colorado                   STACEY E. PLASKETT, Virgin Islands
MARK WALKER, North Carolina          MARK DeSAULNIER, California
ROD BLUM, Iowa                       BRENDAN F. BOYLE, Pennsylvania
JODY B. HICE, Georgia                PETER WELCH, Vermont
STEVE RUSSELL, Oklahoma              MICHELLE LUJAN GRISHAM, New Mexico
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                    Sean McLaughlin, Staff Director
                 David Rapallo, Minority Staff Director
                          Mike Howell, Counsel
                        Tristan Leavitt, Counsel
                    Sharon Casey, Deputy Chief Clerk
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 14, 2015.....................................     1

                               WITNESSES

The Hon. John Roth, Inspector General, U.S. Department of 
  Homeland Security
    Oral Statement...............................................     6
    Written Statement............................................     9

                                APPENDIX

Chairman Jason Chaffetz, Opening Statement.......................    62
Rep. Elijah E. Cummings, Opening Statement.......................    65
Rep. Gerald E. Connolly, Opening Statement.......................    67

 
     U.S. SECRET SERVICE: ACCOUNTABILITY FOR MARCH 4, 2015 INCIDENT

                              ----------                              


                         Thursday, May 14, 2015

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 2:03 p.m., in Room 
2154, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the committee] presiding.
    Present: Representatives Chaffetz, Jordan, Walberg, Amash, 
Massie, Meadows, DeSantis, Buck, Walker, Blum, Hice, Russell, 
Carter, Grothman, Palmer, Cummings, Maloney, Norton, Clay, 
Lynch, Connolly, Cartwright, Kelly, Lawrence, Watson-Coleman, 
and Welch.
    Chairman Chaffetz. Committee on Oversight and Government 
Reform will come to order. Without objection, the chair is 
authorized to declare a recess at any time.
    We're meeting today to talk about the United States Secret 
Service and the accountability for the March 4, 2015, incident. 
On March 4, two senior Secret Service special agents--one had 
the title of Deputy Special Agent in Charge, the Presidential 
Protective Detail, that is Mr. Connolly, and the other one had 
a title of Assistant to the Special Agency in Charge for the 
Washington field office, that would be Mr. George Ogilvie--the 
allegation and the concern was that they drove through a 
criminal scene investigation of a potential bomb at the White 
House.
    Following the incident, there were allegations that the two 
agents were intoxicated after being at a bar downtown for a 
retirement party. Most concerning, however, was the allegation 
neither agent was given a sobriety test, nor were the agents 
reprimanded in any way.
    Part of the concern was what happened in this potential 
bomb scene, and what did they do about it, what did the 
supervisors know, when did they know it, and how did they 
report it up the chain of command? Instead, everyone involved 
was told to go home and pretend like nothing happened.
    To get a better sense of what happened on March 4, Ranking 
Member Cummings and I met with Secret Service Director Clancy. 
Director Clancy could not answer our questions. Next, Mr. 
Cummings and I scheduled a public hearing on the incident. At 
the hearing, Director Clancy said he could not answer the 
questions. Instead, he deferred to the Department of Homeland 
Security Office of Inspector General, who was investigating the 
matter.
    That investigation is now complete, and we're pleased to 
have Mr. Roth here with us today to talk about the conclusions 
of that investigation.
    Now that the facts are in, it is time for accountability. 
The inspector general determined it was more likely than not 
both Agents Connolly and Ogilvie's judgment was impaired by 
alcohol. Since a sobriety test wasn't given to either agent the 
night of March 4, the inspector general came to the conclusion 
based on the facts. These included: Both Connolly and Ogilvie 
spent 5 hours in a bar running up a bar tab that included 14 
drinks after 2 hours of an open bar, and the objective behavior 
of the two experienced Secret Service agents who should have 
known better.
    The agents' impaired judgment resulted in them driving, 
``into a crime scene inches from what the rest of the Secret 
Service was treating as a potential explosive device and which, 
under different circumstances, could have been----
    [Disturbance in hearing room.]
    Chairman Chaffetz. Let me read that quote again. Sorry for 
the disruption.
    The agents' impaired judgment resulted in them driving 
into, ``into a crime scene inches from what the rest of the 
Secret Service was treating as a potential explosive device and 
which, under different circumstances, could have endangered 
their own lives and those of the Uniformed Division officers 
responding.''
    If that had been true, if it had been a real bomb, these 
agents would have been lucky to be alive. They were endangering 
the lives of too many people by doing what they had done.
    Following the incident, the story of the incident began 
making its way up the chain of command, where it eventually 
reached Mr. Connolly himself, for, you see, he is in the chain 
of command. Though required to report what happened, Mr. 
Connolly chose not to. Mr. Connolly even met with his boss, 
Special Agent in Charge Robert Buster, on March 6 to talk about 
the suspicious package incident, but made no mention of being 
involved with the incident himself.
    Mr. Ogilvie, likewise, had a duty to self-report, and chose 
not to. As the inspector general found, their failure to 
report, ``reflects either poor judgment or an affirmative 
desire to hide their activities.'' Relying on the honor system 
for reporting this type of egregious misconduct does not work 
when agents do not act honorably.
    Senior Uniformed Division leaders also violated their duty 
to report by failing to inform Mr. Connolly's boss, the head of 
the Presidential Protective Division.
    Perhaps the situation would have been dealt with earlier if 
the agents were given breathalyzer tests that night. An officer 
on the scene told the inspector general the watch commander 
decided not to administer a breathalyzer to Mr. Connolly and 
Mr. Ogilvie because he was worried to do so would be a, 
``career killer.'' The watch commander was probably right.
    Additionally, as the inspector general stated, the watch 
commander's decision was likely influenced by the, ``Secret 
Service reputation for punishing or ignoring those who would 
further investigate or report violations.'' such as drunk 
driving.
    And that is why the problems that led to this incident 
extend well beyond March 4, 2015. It is one of the ongoing 
concerns that the deep-seeded cultural problems within the 
Secret Service are pervasive and they continue. We have 
thousands of good men and women who serve this country 
honorably and patriotically, we appreciate them, but they are 
not above the law. The Secret Service has to abide by the law 
as well.
    We've heard over and over again the source of morale 
problems within the Secret Service is that senior personnel are 
treated differently from the rank and file and that the 
Uniformed Division is treated differently from the agents. We 
have little doubt that because of this disparate treatment, 
Connolly and Ogilvie believed they could act in a way where 
they would be able to get away with it.
    The culture of special treatment for senior agents must 
stop. It's an embarrassing and highly concerning pattern of 
misconduct and security incidents that need to end. The Secret 
Service mission is too important.
    I want to commend Mr. Roth and his team for their good work 
on this report. They acted swiftly, they put a lot of people 
towards it, and it's produced a very worthwhile result, and 
it's why we're here today.
    We look forward in the future to hearing from Director 
Clancy on this incident and learning whether the agency plans 
to take disciplinary actions against the individuals involved. 
I have a concern that just retiring or stepping aside doesn't 
solve the problem, that they don't truly have the consequences 
that would be associated with such egregious behavior. The job 
of the Secret Service is too important not to reprimand those 
who exercise shockingly poor judgment, which could put the 
President and his family at risk.
    One of the other things that we're going to explore is how 
within the Department of Homeland Security there are different 
tables of penalties within the Department itself. While there's 
a standard for the Department of Homeland Security, there seems 
to be a different standard within the Secret Service and other 
agencies themselves, and yet this is the very reason we 
formed--one of the reasons we formed the Department of Homeland 
Security is to make sure that they have got best practices and 
management together so they could have this uniform across, but 
it's not.
    In fact, one of the things that the inspector general found 
is that even the most senior people didn't understand what the 
alcohol policy was. Sort of an important thing to do and 
certainly an important thing to understand and know.
    Again, we appreciate the good work of Mr. Roth and look 
forward to a good, vibrant discussion today about his findings 
from him and his team.
    With that, I'll now recognize the ranking member, Mr. 
Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman.
    And I want to thank you, General Roth, and your team for 
all your hard work on this investigation from the very 
beginning. You worked with us and met with us, and we took your 
guidance, and we really appreciate all that you all have done.
    You all started immediately after receiving these 
allegations on March 12, a week after the incident, and 
finished them in less than 8 weeks, and that says a lot. In 
that time, they conducted an impressive 48 interviews and 
obtained a wide variety of documents and other materials.
    The report released by the inspector general confirms some 
key allegations, such as the claim that two agents, Mr. 
Connolly and Mr. Ogilvie, in fact had been drinking before 
driving a government vehicle to the White House and then 
driving their government vehicles home.
    The report also debunks other allegations. It concludes, 
for example, that there is, ``no evidence that the video of the 
incident was intentionally deleted or destroyed.''
    This was a model of how an investigation should--should--be 
conducted, and it demonstrates why Congress and this committee 
in particular rely so heavily on the work of our IGs.
    Unfortunately, this report makes clear that there is still 
much work to be done to improve the culture at the Secret 
Service. At a previous hearing on September 30 of last year, I 
expressed grave concern with a Secret Service culture that 
seems to punish those who raise concerns, a culture in which 
employees are afraid to report incidents up the chain of 
command.
    At the time, we were discussing an incident in 2011 when 
multiple shots were fired at the White House. One officer on 
the scene believed bullets had hit the White House, but she 
feared the consequences of disputing her superiors. As a 
result, it was not discovered until 4 days later that the White 
House had been struck 7 times.
    The inspector general's report indicates that this cultural 
problem is indeed widespread. For example, the report 
highlights, ``the Secret Service's reputation for punishing or 
ignoring those who would further investigate or report such 
violations.''
    According to the inspector general's report, some officers 
relayed that the watch commander at the scene on the night of 
the incident raised concerns. According to one officer, the 
watch commander told his colleagues that the agents who drove 
into the barricade were, ``hammered.'' According to that 
officer, however, the watch commander said ordering a sobriety 
test would have been, ``a career killer.'' Therefore no 
sobriety test was done, and both agents drove their government 
vehicles home after a night of drinking.
    The inspector general's report concludes, ``The watch 
commander's actions must be considered in light of the vast 
disparity and rank between the watch commander and Connolly, 
who was in the watch commander's chain of command.''
    I'm also extremely concerned, because just 2 days ago, our 
committee conducted a key interview that further corroborates 
this view. Committee staff interviewed Alfonso Dyson, the 
Deputy Chief of the Uniformed Division, who manages more than 
600 officers. Mr. Dyson admitted to our committee staff that he 
had two telephone calls with Mr. Connolly on the night of the 
incident, one while Mr. Connolly was in the middle of the 
suspicious package scene and another as Mr. Connolly was 
driving home later that night.
    In those calls, Mr. Dyson warned Mr. Connolly that the 
watch commander, ``was going to make it a problem.'' Mr. Dyson 
also admitted that he told Mr. Connolly that the watch 
commander might cause trouble for him. Mr. Dyson stated, ``He 
was going to stir the pot, he was going to spread the rumors, 
he was going to get the guys riled up. That's what I believed 
and that's what I relayed to DSAIC Connolly.''
    This is simply unacceptable. Based on the IG report, the 
watch commander should have done more that night, not less. And 
it is appalling that senior Secret Service officials would 
discourage junior officers from doing the right thing. The 
agents and the officers of the Secret Service will never have 
the full trust of their colleagues while the fear of 
retaliation continues.
    Finally, let me conclude by thanking Director Clancy for 
his cooperation and quick action. As the inspector general 
report concludes, ``Director Clancy acted appropriately upon 
receiving information about potential misconduct.'' The 
inspector general also informed our committee that he received, 
``outstanding.'' cooperation from Director Clancy and the 
Secret Service during the entire investigation.
    Although we had hoped that Director Clancy would be 
available today, this is Police Week, and he's attending 
several events to honor officers for acts of valor and the 
families of those who have fallen in the line of duty. And he 
called personally the chairman and yours truly to express his 
concern and his regrets that he could not be with us at this 
hearing. And I know that the chairman understood that, I 
understood it, and I want to thank him for all he's done. He 
has offered to reschedule for another date, and I look forward 
to hearing from him, Mr. Chairman.
    And with that, I yield back.
    Chairman Chaffetz. I thank the ranking member. And it is 
true that I really do believe through experience that Director 
Clancy has been more than responsive to requests from Congress, 
and his availability is very much appreciated. We may disagree 
on some points, obviously, but his accessibility has been one 
of the best that we have seen.
    I also want to highlight, just at this moment the Secret 
Service was evidently involved and engaged in apprehending 
somebody who was trying to fly a drone. I'm basing this solely 
on media reports. But every day these men and women are dealing 
with very exceptionally difficult situations. Something can go 
wrong at any given time. They do far more than we ever hear or 
see, and we greatly appreciate that.
    It is not enough to just say we appreciate it. They need to 
know we love and care for them and we pray for them. And they 
have a no-fail mission. And that's why when something goes so 
terribly wrong, we've got to learn from it and make sure that 
we fix the problems, because some of this egregious behavior is 
just unacceptable.
    I would also note that just literally happening here today, 
the Secretary's Award for Valor was given to one of the Secret 
Service agents, William Uher. I hope I'm pronouncing his name 
properly. Hometown of Scranton, Pennsylvania. His duty station 
is Washington, D.C. Let me just read the paragraph.
    ``While en route to work on November 22, 2014, the U.S. 
Secret Service Sergeant Technician William Uher came upon a 
motor vehicle accident at the Baltimore-Washington Parkway and 
was the first to respond. After notifying 911, he went to the 
scene to offer assistance. When Sergeant Uher noticed flames 
originating from underneath the hood of the vehicle, he removed 
the occupant, who was would later determined to have a broken 
pelvis and unable to walk.''
    And the men and women who serve as first responders, people 
like that, who do this great work, can't thank them enough. 
They're dealing with tough situations.
    But we expect a lot. And we expect that people will make 
mistakes, but not of such egregious consequences that it puts 
the mission in danger, puts others in danger, and certainly can 
never, ever put the President in danger. He's our President. I 
don't care Republican or Democrat, I don't care how you feel 
about the President, he's our President, and he has to stay 
safe. And that's why it's so pivotal that we continue to 
investigate that.
    I will hold the record open for 5 legislative days for any 
members who would like to submit a written statement.
    Chairman Chaffetz. But we'll now recognize the witness 
who's here today, who represents a large, big group of people 
who have spent a lot of good time in innovative investigative 
work to come to this meeting today. So it's with pleasure that 
we welcome Inspector General John Roth. Mr. Roth assumed the 
post of inspector general of the Department of Homeland 
Security on March 10, 2014, after previously serving as the 
Director of the Office of Criminal Investigations at the FDA, 
the Food and Drug Administration. Before that, he had had a 
long and distinguished career with the Department of Justice.
    Welcome.
    Pursuant to committee rules, all witnesses are to be sworn 
before they testify. So if you will please rise and raise your 
right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give will be the truth, the whole truth, and nothing 
but the truth.
    Thank you. Let the record clearly reflect that the witness 
answered in the affirmative.
    Mr. Roth, we will now recognize you. And don't even bother 
starting the clock. We'll hear your report, and then when 
you're done, we'll ask questions.
    Mr. Roth.

 STATEMENT OF THE HONORABLE JOHN ROTH, INSPECTOR GENERAL, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Roth. Thank you. Chairman Chaffetz, Ranking Member 
Cummings, and members of the committee, thank you for inviting 
me here today. As you know, we have made public our report 
concerning the incident at the White House Complex on the 
evening of March 4.
    Our objective was to conduct a factual inquiry and to 
assess the reasonableness of the actions of the individuals 
involved. We conducted this investigation from March 12 until 
April 30.
    This inquiry centered on the activities of two senior 
Secret Service supervisors. Marc Connolly is the Deputy Special 
Agent in Charge of the Presidential Protective Division, a 
position that he has held for the last 2 years. Connolly's 
duties include all aspects of White House security. George 
Ogilvie is the Assistant to the Special Agent in Charge at the 
Washington Field Office and is a supervisor in the protection 
squad. He has previously worked in the Presidential Protection 
Division.
    The report that we wrote is a summary of the investigation, 
and it is attached to my written testimony. The materials of 
our investigation that we produced, our reports of interviews, 
the physical evidence, and the documents we found, have been 
turned over to the Secret Service in accordance with our 
regular procedures.
    The Inspector General's Office does not make 
recommendations as to whether or what personnel actions should 
be taken, but leaves that to the Secret Service. Our duties in 
this instance are purely investigative.
    The report makes some conclusions based on the evidence 
that we found. For example, it was more likely than not that 
Connolly and Ogilvie's judgment was impaired by alcohol. The 
two agents displayed poor judgment and a lack of situational 
awareness in driving into the scene.
    While during their interviews each denied drinking to 
excess, we must assess those denials in light of the Uniformed 
Division officers' observations of the agents' behavior, the 
fact that they had just spent the 5 previous hours in a 
restaurant bar, and that two highly experienced supervisors 
drove into a crime scene inches from what the rest of the 
Secret Service was treating as a potential explosive device and 
which, under different circumstances, could have endangered 
their own lives and those of the Uniformed Division officers 
who responded.
    Moreover, both agents were required to report their conduct 
up the chain of command, but failed to do so. Each told us that 
they did not believe that what they had done amounted to a 
reportable incident. Their failure to report reflects either 
poor judgment on their part or an affirmative desire to hide 
their conduct.
    With regard to the actions of the Uniformed Division that 
evening, we found that they reacted to the suspicious package 
generally in accordance with Secret Service policy and 
operational procedures. However, the establishment of the 
perimeter should have been better executed. While there's often 
confusion inherent in a fast-moving and factually fluid 
situation, a number of vehicles and pedestrians came within 
close proximity to the object after the Uniformed Division had 
established the safety perimeter.
    The Uniformed Division officers made reasonable attempts, 
while they were securing the scene, to canvass the area for the 
suspect, but an early partial description of the suspect's 
vehicle foiled the ability to apprehend the suspect during her 
flight. However, the Secret Service investigative agents 
reacted quickly to identify the suspect and determine the 
nature of the threat.
    It was the watch commander's sole decision to allow 
Connolly and Ogilvie to pass without further inquiry as to 
their sobriety. The watch commander made this decision on his 
own assessment based on his observations. While it would have 
been far preferable if he had ordered a field sobriety test or 
made other inquiries to establish both agents' fitness to 
drive, the watch commander's actions must be considered in 
light of the vast disparity in rank between the watch commander 
and Connolly, who was in the watch commander's chain of 
command, the vague and insufficient Secret Service policy 
regarding drinking alcohol and driving government vehicles, and 
the Secret Service reputation for punishing or ignoring those 
who would further investigate or report such violations.
    The watch commander reported the facts as he understood 
them to his superior officer. The watch commander and his 
subordinates should have been able to rely on their superior 
officers to appropriately report the situation. Both Uniformed 
Division Deputy Chief Dyson and Uniformed Division Chief 
Simpson were notified that night that the two agents had driven 
into an evacuated area and that alcohol was involved, and each 
could have reported the incident, but did not.
    I would like to publicly acknowledge the hard work of the 
agents of the Office of Inspector General who conducted this 
investigation. They displayed a dedication to the OIG mission 
and professionalism that does me proud, and I am grateful for 
their efforts.
    Additionally, I would like to express my appreciation for 
the outstanding cooperation we received from the Secret 
Service's Office of Professional Responsibility and from 
Director Clancy himself.
    Mr. Chairman, that concludes my testimony. I'm happy to 
answer any questions you may have.
    [Prepared statement of Mr. Roth follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Chaffetz. Thank you. I now recognize myself for 5 
minutes.
    Mr. Roth, there was an email about the incident forwarded 
up the chain of command on March 4. Can you tell me a little 
bit more about that email, what you found?
    Mr. Roth. Certainly. What we had found was that--and let me 
get to the page in the report that has that.
    Chairman Chaffetz. The version I have is page 15.
    Mr. Roth. Thank you, sir.
    Correct. There was an email that was sent really up the 
chain of command all the way to the SAIC of the Presidential 
Protection Division that described in sort of very vague terms 
what had occurred at the entrance of E Street.
    Chairman Chaffetz. And why do you think the email was 
forwarded by Deputy Chief Dyson to Mr. Connolly himself?
    Mr. Roth. I think it was to let Mr. Connolly know that, in 
fact, word was getting out of the incident and that he had the 
necessity to self-report.
    Chairman Chaffetz. And how did Mr. Connolly respond to that 
email?
    Mr. Roth. During that night when Mr. Connolly was driving 
home, he called Deputy Chief Dyson and expressed his concerns 
with regard to the fact that this was getting out.
    Chairman Chaffetz. So if Deputy Chief Dyson denied that he 
was aware that the email was about the vehicle containing Mr. 
Connolly, would you find that denial credible?
    Mr. Roth. Not knowing any other facts, it certainly would 
raise some additional questions I'd have to ask Deputy Chief 
Dyson. The evidence that we have derived indicates that Mr. 
Connolly and Deputy Chief Dyson had a conversation as Connolly 
was driving home expressing concerns about that email itself.
    Chairman Chaffetz. So for him to suggest that he had no 
idea that Connolly was in the car, that couldn't possibly be 
true, could it?
    Mr. Roth. Our interview of Deputy Chief Dyson, I believe he 
indicated that it sounded like Connolly was in the car as they 
were having that discussion.
    Chairman Chaffetz. Did your investigators ask any questions 
about the video cameras being directed away from the area where 
Braun was questioning Connolly and Ogilvie? That was something 
that our whistleblowers, and there are concerns that the video 
cameras were actually moved away so that they could not see 
that interaction.
    Mr. Roth. I was not aware of any of that. What we did find 
with regard to the video preservation was, as you know, there's 
only a 72-hour preservation of the video unless it is somehow 
burned to removable media.
    What we found in the course of our investigation was the 
actual, what I would call the barrel incident, Ogilvie driving 
and striking the barrel and moving the barrel out of the way, 
was, in fact, burned onto removable media at the request of the 
Uniformed Division folks who were on the scene and who wanted 
to figure out exactly how it was that that barrel was moved. 
We, of course, had no other video, so there was nothing else to 
review other than that snippet that had gotten burned that 
night.
    Chairman Chaffetz. And that's one of our deep concerns long 
term, is just that, A, why the policy, when you require an 
airport to retain video for 30 days and yet they only retain 
this for hours? There were a couple different potential crimes 
going on. You did have two people that were trying to detain 
this woman from driving away. They claimed to be injured and 
assaulted. That video is not necessarily all captured from 
start to finish. The bungling of how we were going to apprehend 
this person who had left a potential bomb.
    Let me ask you, were there any officers in the JOC that 
night who outranked Braun, do you know?
    Mr. Roth. That outranked Braun?
    Chairman Chaffetz. Yeah.
    Mr. Roth. There was an assistant to the SAIC, I think in 
the Presidential Protection Division, who was there, so in 
other words, an investigative agent, I think, in a GS-14 level. 
I'm assuming that that outranks Braun, but I'm not 100 percent 
sure.
    Chairman Chaffetz. One of the concerns is about when 
Director Clancy knew. You know, this thing was evidently 
spreading like wildfire, there's emails, there's telephone 
discussions, there are people who are asking to have videotape 
preserved because they were upset and irate about what was 
going on. You had former agents, you had retired agents, you 
had a newspaper reporter, you had members of Congress all heard 
about this before Director Clancy. Is that possible?
    Mr. Roth. Apparently that's what the facts show.
    Chairman Chaffetz. So who's responsible? Where did it stop? 
Where did it not continue up the chain of command so that 
Director Clancy knew about it?
    Mr. Roth. Well, I think there are several points of 
failure. I mean, certainly one of the points of failure is with 
Connolly and Ogilvie, who had, according to Secret Service 
policy, a duty to report their own misconduct up the chain. So 
the SAIC of the Presidential Protection Division, in fact, 
should have been informed by Connolly, and the SAIC of the 
Washington Field Office should have been informed by Ogilvie, 
but were not. So that's one point of failure.
    I think the other point of failure is with the supervisors, 
the leadership in the Uniformed Division. Both the chief and 
the deputy chief could have and should have reported it up. 
Each of them when we interviewed them said: Well, the reason 
that we didn't do it is because Connolly believe--or Connolly 
told us that he was going to self-report, so I didn't want to 
do it, I'd rather have Connolly do it.
    Chairman Chaffetz. But, technically, both should have 
happened, right? They should have self-reported and they should 
have reported it. They knew that misconduct had happened.
    Mr. Roth. Correct.
    Chairman Chaffetz. So why didn't they do it?
    Mr. Roth. Well, I think it was a failure on those 
individuals' parts to do what it is that they were supposed to 
do.
    Chairman Chaffetz. Anybody else should have reported?
    Mr. Roth. Those are the four individuals that I believed 
had primary responsibility. Obviously there were individuals, 
for example, in the JOC, the Joint Operations Center, who 
understood what went on, including the 1811, the special agent 
supervisor who was at the JOC that evening, who could have 
reported it up, probably should have reported it up. There are 
the Uniformed Division individuals themselves who could have 
reported it as well.
    Chairman Chaffetz. And my concern is that they did not 
preserve all the video that was germane to both the leaving of 
the package, the fleeing of the person, and the incident 
itself.
    With that, I yield back and now recognize the ranking 
member, Mr. Cummings.
    Mr. Cummings. Picking up exactly where the chairman left 
off, Mr. Roth, I notice that at the beginning of your report 
you mentioned that you're deferring specific conclusions about 
potential systemic issues facing the Secret Service until you 
have completed your investigation into at least five or six 
other incidents. Is that correct?
    Mr. Roth. That's correct, sir.
    Mr. Cummings. And what form do you think that's going to 
take? It seems like we have a culture of secrecy, a culture of 
complacency, a culture of fear of retaliation. I mean, what do 
you see, where are you going with that?
    Mr. Roth. Sure.
    Mr. Cummings. You follow me?
    Mr. Roth. Yes, I do. And the way I see our office is where 
we add value is having that independent fact-finding ability, 
to be able to go in and gather documents and interview 
individuals who are, in fact, compelled under DHS rules to talk 
to us.
    So what we intend to do is very similar to what we did with 
the Bush residence alarm report that was issued a few weeks 
ago. We are going to find a lot of facts and we are going to 
see exactly what it is that we find. We are going to use the 
disinfectant of sunlight. We are going to publish reports. We 
are going to report them both to the Secretary, to the Director 
of the Secret Service, and obviously the committees to whom we 
report.
    We think that at the end of those fact-findings, some of 
the conclusions or some of the sort of themes will become 
apparent. But, for example, we'll do--or we are in the process 
of doing an investigation into the 24 incident at the CDC where 
the President was in close proximity to an armed security 
guard, unknownst to the Secret Service.
    We will write a factual report about exactly what happened, 
where there were points of failure within that, and publish 
that, again, to this committee, as well as the other committees 
of jurisdiction, to the Secretary, and to the Director.
    Mr. Cummings. So it sounds similar to when the DOJ comes 
into a police department and is looking at patterns of 
practice. I mean, is that similar, do you think?
    Mr. Roth. I think that's a pretty good analogy. The only 
difference is that we are going to do this serially. In other 
words, we are not going to wait until the end. We are going to 
produce these, because we think it's important to get the 
information out as quickly as we possibly can.
    Mr. Cummings. Now, I want to ask you about the agency's 
policies regarding alcohol, which your report calls, ``vague 
and insufficient.''
    Mr. Roth. Correct.
    Mr. Cummings. First let me quickly walk through some 
details about the retirement party.
    According to your report, the party started at about 5:30 
and lasted until 7:30. Your report says there was an open bar. 
Afterwards, Mr. Connolly and Mr. Ogilvie stayed at the bar with 
two other colleagues, and, according to your report, Mr. 
Ogilvie opened a new bar tab at 7:44 p.m. And closed it 3 hours 
later. Is that right?
    Mr. Roth. That's correct.
    Mr. Cummings. As part of your investigation, you obtained 
the actual bar tab, did you not?
    Mr. Roth. We did.
    Mr. Cummings. And I would like to put it up on the screen. 
Your report says they purchased, ``eight glasses of Scotch, two 
vodka drinks, one glass of wine, and three glasses of beer.'' 
They were on a roll.
    Looking at this tab, the first three items are beers, then 
a glass of wine, then eight--eight--Johnny Walker Reds, and 
then two vodka drinks. So 14 alcoholic drinks in all. Is that 
right?
    Mr. Roth. That's correct.
    Mr. Cummings. The agents claimed that they did not have all 
of these drinks. Mr. Ogilvie told your investigators that five 
glasses of Scotch, the glass of wine, and the three beers were, 
``given away to others.'' but he could not remember to whom. Is 
that correct?
    Mr. Roth. That's correct.
    Mr. Cummings. Okay. But at a minimum Mr. Ogilvie admitted 
to drinking two Scotches and one beer, Mr. Connolly admitted to 
drinking two beers, and both Mr. Connolly and Mr. Ogilvie also 
admitted that they drove their government vehicles that same 
evening on their way home. Is that right?
    Mr. Roth. That's correct.
    Mr. Cummings. As of March 4, the Secret Service had a 
policy that prohibited officers from operating government 
vehicles, ``while under the influence of intoxicants,'' but 
your report says that this policy applied only to Uniformed 
Division officers, not to agents like Mr. Connolly or Mr. 
Ogilvie. This seems a bit ridiculous to me, but do you know why 
that was the case?
    Mr. Roth. We don't. And what we found with a lot of these 
policies is they were put in, in sort of a piecemeal and 
patchwork fashion. But we don't have a good explanation as to 
why it only applied to the Uniformed Division but not to the 
special agents.
    Mr. Cummings. Now, the Secret Service is also part of the 
Department of Homeland Security, which has its own policy 
prohibiting all employees from drinking alcohol within 8 hours 
of operating a government vehicle. So even if we take the 
agents at their word in terms of how much they drank that 
night, it seems they violated existing DHS policy, but your 
report says that you found, ``no evidence that anyone in the 
Secret Service was aware of this policy.'' Is that right?
    Mr. Roth. That's correct.
    Mr. Cummings. That's a problem.
    Mr. Roth. Yes.
    Mr. Cummings. And I don't see how we can have the elite of 
the elite and they don't even know what their own rules are.
    After the incident on March 4, the Secret Service issued a 
new rule prohibiting all employees from drinking any alcohol 
within 10 hours of driving a government vehicle. So this new 
rule is even more strict than the DHS policy. Is that right?
    Mr. Roth. That's correct.
    Mr. Cummings. Do you know if the Secret Service is taking 
steps to educate their employees about this new policy and are 
they conducting training in that regard?
    Mr. Roth. We did not look at that in this investigation, 
but that is something that we are certainly interested in.
    Mr. Cummings. Well, I'm sure that's something that this 
committee will take up.
    My last thing just, Mr. Roth, there are clearly significant 
problems relating to alcohol at the agency. We've seen that in 
the past incidents as well. But it also appears that the 
agency's vague policies just made worse the problem. So I hope 
today's hearing is part of a broader effort to reform the 
agency's policies, to make absolutely clear to employees what 
is expected of them, and to revitalize the agency so it can 
perform its critical mission and once again become the elite of 
the elite.
    With that, I yield back.
    Mr. Connolly. Mr. Chairman, just as a matter of personal 
privilege.
    Chairman Chaffetz. Yes.
    Mr. Connolly. Mr. Connolly is not related to me, nor do I 
like Scotch. Thank you.
    Chairman Chaffetz. Duly noted.
    We'll now recognize the gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    Mr. Roth, in your report you said that the incident should 
be considered in light of the Secret Service's reputation for 
punishing or ignoring those who would further investigate or 
report such violation. And that interests me, because before 
your tenure the DHS Office of Inspector General released a 2013 
report which did not find evidence in the Secret Service that 
misconduct or inappropriate behavior is widespread or that 
leadership has fostered an environment that tolerates 
inappropriate conduct.
    So given your tenure, given this report, what are your 
thoughts about the 2013 DHS report? Is that an accurate 
reflection of what's going on in the culture of the Secret 
Service right now?
    Mr. Roth. Certainly not right now, it is not, I mean. But 
one of the things about the report that you reference, the 2013 
report, is that there are fascinating findings within it. For 
example, they did a survey, an electronic survey in which 138 
electronic survey respondents personally observed excessive 
alcohol consumption and 86 percent of them indicated that they 
did not report such behavior. The report also indicated that of 
the 2,500-and-some electronic survey respondents, 44 percent of 
them felt that they could not report misconduct without fear of 
retaliation if they, in fact, reported that.
    So within that report itself there are some very, very 
disturbing trends. And I think, given the nature of what it is 
that we've seen since then, I believe that there is a serious 
problem within the Secret Service.
    Mr. DeSantis. And that report also found that 36 percent of 
the respondents did not believe that senior managers are held 
accountable within the agency. Do you think that that is still 
the case today?
    Mr. Roth. We haven't done any work on that, but it would 
not surprise me if it is still that case.
    Mr. DeSantis. Is there any indication that the process for 
discipline within the Secret Service has improved since the 
2013 report?
    Mr. Roth. Well, it certainly has improved since Cartagena. 
The Secret Service has taken steps to--they have an Office of 
Integrity now, for example. That is the one that imposes 
discipline. As a result of our 2013 inspection, we made a 
number of different recommendations, including the table of 
penalties, which they now have adopted. So I think the Secret 
Service is moving in the right direction in this area after 
Cartagena.
    Mr. DeSantis. It's safe to say, though, that the 
conclusions reached in the 2013 report, that there's a conflict 
between the conclusions you reached in your report.
    Mr. Roth. I would agree with that.
    Mr. DeSantis. So the question is then, how to correct what 
has led to the cultural problems that your report identifies. 
And then I agree with you that, I think, underlying the 2013 
report you saw evidence of that from the people who responded 
to the survey. So as people who are doing oversight, I mean, 
what do we need to be doing or what does the agency need to be 
doing, in your judgment?
    Mr. Roth. Well, candidly, I think Director Clancy is moving 
in the right direction. As I said, they've indicated they've 
put together a table of penalties, they have an Office of 
Integrity. I think they're doing increasing training on this. I 
think they've treated violations of this very seriously. For 
example, the auto accident in Florida involving some of the 
Uniformed Division that was alcohol related, I think the 
discipline that was imposed there was appropriate.
    So I won't expect that a problem that took years to create 
will be fixed overnight, but I do think they are moving in the 
right direction.
    Mr. DeSantis. Amongst your experience with the other 
components of DHS, do they all have similar issues with alcohol 
or is the Secret Service unique in that regard?
    Mr. Roth. We haven't taken a specific look at other law 
enforcement agencies to the degree that we have with the Secret 
Service.
    Mr. DeSantis. But you have not had a lot of alcohol-related 
incidences brought to your attention that you've had to 
investigate? Is that fair?
    Mr. Roth. That's fair.
    Mr. DeSantis. Do any of the other DHS components have a 
similar reputation where somebody who is trying to do the right 
thing could end up getting punished or marginalized?
    Mr. Roth. Again, we haven't looked at that, so it's very 
difficult for me to opine on that.
    Mr. DeSantis. But you can say that that is not a problem 
that's been presented to you in the other components during 
your tenure, correct?
    Mr. Roth. That's correct, it hasn't been brought to my 
attention that that's the case.
    Mr. DeSantis. Great.
    Well, let me thank you for the report. I thought it was 
done timely and I think it had a lot of good information in it. 
So thanks for doing that. And obviously we want to see with 
some of the other incidents, we are looking forward to those 
results as well. So thank you.
    And I yield back.
    Chairman Chaffetz. Thank you.
    I now recognize Ms. Norton from the District of Columbia, 5 
minutes.
    Ms. Norton. Thank you, Mr. Chairman, and thank you for this 
hearing. You've been pretty busy, Mr. Chairman, today.
    And, Mr. Roth, we appreciate your report. You of course see 
some congressional impatience. That impatience, I suppose this 
committee is paid to be impatient, particularly, though, in 
light of the repetitive incidents.
    So I'm trying to be as objective as I can and to put this 
in perspective. I can do that because I ran an agency that was 
a whole lot more troubled at the time than the Secret Service, 
a huge backlog and the rest, and if someone had said to me, you 
know, within a couple of months get it in order, I would have 
been in bad shape. It took me a little time to get rid of that 
backlog. So I'm trying to keep in mind what it is Mr. Clancy 
found and what he perhaps has done.
    Now, I note that I asked staff to find out, you know, when 
was he appointed exactly. He is actually a long-term employee 
of the Secret Service. He was acting from October. The March 4 
incident occurred in I consider his acting time, but he was 
official as of February 19.
    Now, as of the March 4 incident, Director Clancy apparently 
had not issued the order that was issued after that incident 
involving the two agents, required to report through their 
chain of command any activities, et cetera.
    And my concern with that is whether or not this indicates--
it seems to me that in light of his efforts, having been with 
the agency, for example, even during the time when there was no 
reporting of the bullets that had penetrated the White House, I 
was concerned that the first thing he did was not to say: Look, 
let me know before the press knows and before anybody knows. It 
bothered me that, as short a time as that may seem, that he 
certainly was aware.
    So my question goes to whether or not, in light of this 
order after the March 4 incident, you believe there is 
sufficient clarity so that that might seem pretty clear as to 
what is required. For example, I don't know, and do agents know 
about drinking off duty? Does there need to be greater 
clarification beyond reporting now up the chain of command of 
what is required of an agent on and off duty?
    These agents have been under huge duress, according to the 
special panel. ``For years the Service has taken on additional 
missions in both protective and investigative roles, but has 
not matched its request for additional resources of those 
expended.'' And they reported that they had been on 12-hour 
days and with fewer and fewer days off.
    So, again, if you step back and look at it, they have 
obviously been subject to the sequester and the rest of it. And 
the panel said that they needed, at best, 200 officers and 85 
agents and that they were down 500.
    So essentially you have some overworked, overburdened 
agents. So you would imagine that if people even that high in 
the chain of command had been overworked that way, that they 
might go out and drink too much.
    So is there any clarification? If you're an officer of 
something like the Secret Service and you are off duty, but 
subject perhaps to being called on duty, but bearing in mind 
that everybody's entitled to a private life, is there enough 
clarification about what is required on and off duty so that we 
can be assured that there will not be another incident like 
this?
    Mr. Roth. I think you raise a good point and a good 
concern, and it's certainly one that we wrestled with, with 
regard to what does it mean to be on duty, because most of 
these special agents are subject to recall at any time. Does 
that mean they can never consume alcohol? It would seem to be 
an irrational policy if that's the case. But I agree that there 
probably is room for clarification with regard to that.
    Ms. Norton. All right, Mr. Chairman. Thank you very much. 
Mr. Chairman, I would ask that, because I think this is a very 
murky area, that we ask Director Clancy to bring some 
clarification. For example, certain number of hours perhaps 
before being required to report for duty, et cetera, I have no 
idea, but some clarification might be fair in light of what 
they should expect.
    Chairman Chaffetz. I wholeheartedly agree, because what you 
see at Homeland Security issued by Secretary Johnson is 
different than what the individual agencies within his 
Department have in front of them. And there should be a uniform 
standard across the board, and there's not. And I think that is 
one of the fixes that we need to work with the agency.
    Ms. Norton. Well, maybe even a higher standard for Secret 
Service agents.
    Chairman Chaffetz. Amen.
    All right. Let's now recognize the gentleman from North 
Carolina, Mr. Walker, for 5 minutes.
    Mr. Walker. Thank you, Mr. Chairman.
    Let me just sort of pick up what we were discussing when it 
comes to off duty/on duty in the aspect of driving government 
vehicles. So the question I'd like to start with is, did you 
determine whether any other attendees, Mr. Roth, at the party 
drove government-owned vehicles after consuming the alcohol?
    Mr. Roth. We did not. We interviewed some of the 
individuals who were at the sort of farewell party in which 
alcohol was served. Some of them had alcohol and then, for 
example, went back to the office to continue to work. But we 
did not really press it.
    And my point with regard to that is that the DHS policy was 
really unknown to the Secret Service. No one within the Secret 
Service understood it. We did not see any attempts by the 
Department itself to promote this policy. The policy was in the 
manual for essentially maintenance of cars, government cars. It 
was not a place in which you would naturally look to see a 
policy like that. So it was difficult for us to blame somebody 
for violating a policy that, one, they didn't know about, and, 
two, no one made an effort to tell them about.
    Mr. Walker. Granted. And I understand being ignorant of 
certain aspects in ethics and so forth as we continue to learn 
even as a new Member of Congress.
    However, let me ask this. Were any of the party attendees 
of the Secret Service part of the executive staff? And if so, 
should not they be held some kind of liable to understand what 
the rules are?
    Mr. Roth. Yes. I agree with that. Subsequent to this, of 
course, as has been noted, the Secret Service put a new policy 
in place, a very bright line policy in place that says you 
cannot step into or operate a government vehicle if in the last 
10 hours you've had any alcohol whatsoever. So certainly the 
behavior that took place at the party is now prohibited. So 
there is clarity.
    Mr. Walker. There's no ambiguity. I mean, you've, I guess, 
proved the fact that they did know of at least that policy part 
of it. Is that correct? I mean, most Secret Service agents, if 
you've been drinking, probably not a good idea to get back into 
your government-owned vehicle.
    Mr. Roth. Well, what we found was that there was a lot of 
uncertainty as to what the policy was. It was to not drive 
drunk, obviously. But the question of when you're impaired, in 
other words, is it okay to have a drink and then drive? And I 
think at a previous hearing Director Clancy, in fact, talked 
about that. If you're not able to control your actions, it's 
not a legal limit, but it could be something less. You may not 
be intoxicated by a legal limit, but some could say that you 
don't have the proper abilities. So some sort of impairment. 
But that was such a vague sort of standard that it's 
functionally unenforceable.
    Mr. Walker. It is, but you did mention, I believe, just a 
second ago that some Secret Service employees returned to work 
after consuming the alcoholic beverages. Is that correct?
    Mr. Roth. Correct.
    Mr. Walker. Okay. And what has been done or what has been 
said, what has been reprimanded? Give me a little bit of 
background what happened after that was found out.
    Mr. Roth. Sure. I mean, our policy is that we find the 
facts and conduct the investigation, and then we give 
everything that we have to the Secret Service, because we are 
not in the discipline business----
    Mr. Walker. I understand that.
    Mr. Roth. --we are in the fact-finding business.
    Mr. Walker. You're just fact-finding. Are you aware of 
anything that's been done to those employees who were drinking 
and then came back to work?
    Mr. Roth. No. We have transmitted our information last 
week. So we haven't heard anything back. I mean, typically we 
won't, by the way.
    Mr. Walker. We talked a little bit about the culture of the 
Secret Service. And I appreciate some of the words that you've 
talked about as far as you feel like there's been a little bit 
of improvement or change or a 30,000-foot expectation of 
raising the bar a little bit. But this kind of contradicts that 
mindset that there's still that frat party mentality that what 
applies to everybody else doesn't apply to us. I don't want to 
speculate or create some kind of hypothesis here, but is that a 
fair statement, that there are still things, work needs to be 
done inside the Secret Service to get the level--the bar 
raised?
    Mr. Roth. Yes. I share your concern with exactly that. We 
don't know the degree of the problem, but it certainly seems 
like there are some issues here.
    Mr. Walker. I will tell you this on a personal note, Mr. 
Roth. I've seen you here, as well as my other committee on 
Homeland Security. You always do exemplary work. And I 
appreciate and I think the Americans appreciate your 
thoroughness.
    Mr. Roth. Thank you.
    Mr. Walker. Thank you very much.
    With that, I yield back, Mr. Speaker. Thank you, Mr. 
Chairman.
    Chairman Chaffetz. Thank you.
    I now recognize Mr. Clay of Missouri for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman.
    Mr. Roth, I want to ask about an email exchange that your 
investigators obtained between the two agents who had been 
drinking in the bar, Mr. Connolly and Mr. Ogilvie.
    First, let me walk through some facts. The incident 
happened on the night of March 4. Your report found that Mr. 
Connolly and Mr. Ogilvie should have reported this incident, 
but neither did so. Is that right?
    Mr. Roth. That's correct.
    Mr. Clay. Based on their failure to report, it seems like 
they were hoping this whole thing would just blow over.
    Two days later, on March 6, Mr. Connolly had his chance to 
come clean. He had a meeting with his superior, the Special 
Agent in Charge, Robert Buster, but according to your report, 
he never mentioned anything involving this incident. Your 
report says this, and ``Connolly met with his supervisor, SAIC 
Buster, on March the 6th, and discussed the UD officers' 
handling of the confrontation with the suspect in the 
suspicious package incident. Connolly did not mention the 
incident involving him and Ogilvie.''
    So at this meeting on March 6, Mr. Connolly basically 
decided that he would just keep his mouth shut and not tell his 
supervisor what happened. Is that correct?
    Mr. Roth. That's correct.
    Mr. Clay. And he also would have learned at that meeting 
that nobody else had reported the incident either.
    And so here is what I want to ask you about. The very next 
day, on March 7, Mr. Ogilvie and Mr. Connolly had an email 
exchange. I'd like to put it up on the screen.
    Okay. This is an email exchange.
    Mr. Ogilvie at 8:24 said: ``All good.''
    Mr. Connolly at 8:30: ``Muy bueno.''
    And then at 8:50: ``You are''--from Mr. Ogilvie--``You are 
an angel.''
    Mr. Roth, I don't know what was in their heads, but 
certainly one interpretation of this exchange is that Mr. 
Ogilvie was asking: Hey, are we going to get in trouble for 
this or are we all good? Then Mr. Connolly, who just met with 
his boss the day before and determined that nobody else had 
reported the incident, assured him that everything would be 
fine.
    Mr. Roth, your investigators interviewed Mr. Ogilvie. 
According to their interview notes, Mr. Ogilvie admitted that 
the context of this email was to check in with Mr. Connolly 
about the March 4 incident. Is that correct?
    Mr. Roth. Yes, sir.
    Mr. Clay. In contrast, Mr. Connolly told your investigators 
that this email had nothing to do with the March 4 incident. He 
claimed that he had no idea what this email was about, no clue. 
He told your investigators, ``He did not know what the intent 
was behind it. It was open-ended. And he did not know if it was 
in reference to March 4 or the busy day that he was having.''
    Mr. Roth, I have one last question for you. Do you buy 
that?
    Mr. Roth. No, I don't. I believe that this was 
communication between the two to make sure or see whether or 
not the word had leaked out with regard to the incident that 
had happened 2 days prior.
    Mr. Clay. What usually happens when a witness like that is 
being so dishonest? Are there any followup to a person's 
dishonesty? I guess this was a deposition or just a 
questioning?
    Mr. Roth. It was an interview that took place as part of an 
investigation that we were doing. He has the obligation, 
obviously, to be--to tell the truth. And I think there are 
penalties as a result of not telling the truth.
    Mr. Clay. All right. Well, thank you so much for your 
responses. Mr. Chairman, I yield back.
    Chairman Chaffetz. Thank you. Now recognize Mr. Hice from 
Georgia for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman. You have already stated, 
Mr. Roth, that it was a failure on the part of Dyson and 
Simpson not to report the incident. And their excuse was that 
they thought this would be self-reported. Do you believe that 
allowing individuals to self-report is acceptable?
    Mr. Roth. No, I do not. I think, particularly in the 
supervisory chain, that they had an independent duty to report 
this, either to me or to the Secret Service Office of 
Professional Responsibility, or up the chain. I would note that 
the Uniformed Division chief said he didn't think it was his 
job to report misconduct that happened by special agents.
    Mr. Hice. So is this a policy problem or a communication 
problem?
    Mr. Roth. I think this is a communication problem.
    Mr. Hice. So what does the policy say?
    Mr. Roth. The policy says that individuals have a 
responsibility to report suspicions of violation of law or 
regulation, either to the Inspector General or, for example, 
here to the Office of Professional Responsibility.
    Mr. Hice. Does the policy state that individuals must self-
report?
    Mr. Roth. There is a Secret Service policy that requires 
individuals to self-report, yes.
    Mr. Hice. Okay. But you don't believe that that is 
effective?
    Mr. Roth. I think it is effective if you have the integrity 
to do so. Obviously, if----
    Mr. Hice. But you just said that it's not an acceptable 
practice, and yet it's policy. So can we expect that policy to 
change?
    Mr. Roth. I think that's a question that you should direct 
to the Secret Service.
    Mr. Hice. Do you believe that Dyson and Simpson should be 
punished?
    Mr. Roth. We are not in the business of determining what 
the appropriate punishment should be.
    Mr. Hice. I am asking do you believe they should be?
    Mr. Roth. I think their behavior was troubling.
    Mr. Hice. Do you believe they should be punished?
    Mr. Roth. I think there ought to be consequences for these 
kinds of actions, yes.
    Mr. Hice. All right. Do you believe that any personnel, be 
it with DHS or Secret Service or whatever, should be able to 
retire in order to avoid punishment for misconduct?
    Mr. Roth. Again, that gets into areas of personnel law that 
I am simply----
    Mr. Hice. But I am asking your opinion.
    Mr. Roth. Personally, I have been in the government for 29 
years. I have a pension. It's vested. That is my property. I 
would like to think I could rely on that.
    Mr. Hice. But in order to avoid punishment for misconduct--
we are seeing an awful lot of this these days, and it's quite 
disgusting to me personally and to a lot of people that I talk 
to. It's a way of dodging consequences for personal behavior. 
It enables people to behave any way they want to, and when they 
get caught with their hand in the cookie jar, they just retire 
with no consequences. And you believe that's okay?
    Mr. Roth. I certainly understand the frustration with this. 
I mean the maximum consequence that could be faced here would 
be termination from the service, leaving the service, which is 
functionally what retirement will do.
    Mr. Hice. Without punishment, though, for misconduct. 
Somewhere along the way we have got to deal with the problem of 
misconduct. And at this point, there seems to be nothing. And 
if anyone's caught, they just retire and there is no 
consequences. And that's an entirely unacceptable policy when 
all is said and done. At some point, misconduct has to be dealt 
with, because we are seeing, it seems like on a regular basis, 
Secret Service high profile cases of misconduct. And there is a 
root cause somewhere for this culture that allows for 
misconduct. What do you believe the root cause is?
    Mr. Roth. I think it is a lack of accountability.
    Mr. Hice. Okay. So how do we correct it?
    Mr. Roth. Well, again, I think what the Secret Service has 
done--and again, this is probably better addressed to the 
Secret Service--is institute a series of reforms, for example a 
table of penalties, a more uniform way of administering 
discipline, better communication, those kinds of things.
    Mr. Hice. There is actually a reputation, and I know you 
know this, from the report that there is punishment for those 
who report----
    Mr. Roth. Correct.
    Mr. Hice. -- misconduct. Have you ever considered rewarding 
people for reporting misconduct?
    Mr. Roth. Financially?
    Mr. Hice. In any way. I mean would that help bring 
accountability?
    Mr. Roth. I think that's something that's worthy of some 
discussion. Certainly one of the things that we tried to do, 
for example, what I did when I came onboard is I sent an email 
to all 7,000 email addresses in the Secret Service indicating 
that we were interested in finding sort of misconduct, waste, 
fraud within the Secret Service, reminding them of protections 
they have within sort of the Whistleblower Protection Act as 
well as the Inspector Generals Act. You know, as a result of 
that, we have gotten some work, some reports. The report on the 
Bush residence that had an alarm that had been out for 13 
months was as a result of a whistleblower. Somebody came 
forward and said, look, this is an unacceptable thing. You 
should see what's happened here. And we were able to 
investigate it, we were able to write a report, we brought it 
to light, and we fixed the problem. So what I am hopeful of is 
that as we move down the road, people will understand that, in 
fact, they do have some redress, that, you know, reporting 
something up the chain won't simply be ignored, but they will 
actually fix the problem. But it is going to take some time.
    Mr. Hice. Thank you.
    Chairman Chaffetz. Thank you. I now recognize the gentleman 
from Massachusetts, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman. Thank you, Mr. Roth, 
for your good work here. You did a bang up job on this 
investigation. You got to the bottom of it. And we appreciate 
it. I want to talk to you a bit about the videotape procedure 
there at the White House. Now, we had a chance, a bunch of the 
members, Chairman Chaffetz and I and the ranking member, Mr. 
Cummings, went over to the command post for the Secret Service. 
And they had a full spectrum situation there where they have 
maybe a dozen different cameras and different angles, and they 
have got a pretty good view of the White House.
    The problem is that in this case, let's just take this case 
with, you know, the most recent incident where the woman got 
out of the car and left the bomb in the driveway, that tape was 
only retained I think for 72 hours. And they did not--they did 
not tell Director Clancy for 5 days. So by the time they told 
him about what had happened, most of the tapes had already been 
destroyed--well, they hadn't been destroyed, they had been 
taped over. They retape over. That's every 72 hours.
    We also had an incident back in November of 2011 where you 
had an individual, I believe his name was Ortega, Oscar Ortega 
Hernandez, who took a semi-automatic rifle and shot up the 
White House, and yet the Secret Service completely missed it, 
Capitol Police missed it. A housekeeper happened to find some 
shell fragments and then reported it and then the FBI did an 
investigation.
    But meanwhile, those tapes were destroyed. Those tapes were 
destroyed. And--but for the fact that this fellow, after he 
left had a car accident down by the 14th Street Bridge, we 
would not have known about that. We would not have been able to 
connect that incident to the shots fired at the White House.
    So, what I am getting at is the airports, everybody uses a 
30-day cycle on these tapes. The technology today allows us to 
do that. And I know you had some inquiry into the reasons why 
they collapsed that time. Why would the Secret Service want to 
tape over the tapes when we have had these repeated incidents 
where a longer preservation of those tapes, say for 30 days, 
would help us to make the White House more secure?
    The second example I gave, the President's mother-in-law 
and his two daughters were in Washington at the time. One of 
the daughters was home. You know, we are talking about pretty 
severe consequences here, and we are sort of whistling through 
the graveyard here in allowing this practice to go on. So what 
I would like to try to do is to change the protocol, the 
security protocol at the White House to start doing things in a 
way that makes the President and his family safer. Because 
obviously you have got people jumping over the fence, running 
through the White House, you have got helicopters landing, and 
drones, you got people shooting up the White House. I am 
starting to lose faith. I am starting to lose faith in the 
Secret Service. I really am. And the level of seriousness that 
we have in protecting our President and his family. This is 
pretty basic stuff. So after having inquired about the taping 
practices at the White House, can you tell me if you have any 
recommendations that they might adopt to accomplish our goal 
here of protecting the President?
    Mr. Roth. What we found was actually even worse than what 
you described because for the longest time it was only a 24-
hour retention policy.
    Mr. Lynch. Correct.
    Mr. Roth. And they only changed that after the incident in 
which there were these functionally gate crashers at the State 
dinner in 2011. Then they moved it to 72 hours. The system, as 
I am sure you know, is a combination of digital and analog. It 
was stood up in 2007. And really, you know, in some ways this 
is very similar to what we saw in the Bush residence, where 
they had installed an alarm system after--this was the senior 
Bush--left office, and they never replaced it. So it was a 20-
year-old alarm system that was protecting, you know, a former 
President. They didn't have a system in place to be able to 
update these kinds of things. There was not, you know, for 
example even like a ticket system where if you needed something 
repaired there would be a record that, in fact, you requested 
these kinds of repairs.
    So a lot of their fundamental business practices simply 
have not kept up with the 21st century. I think the good news 
is that with regard to the White House video system, there are 
updates that are going to occur in the near future.
    Mr. Lynch. Okay. Any timeline on that?
    Mr. Roth. I do. I am not sure that's public information.
    Mr. Lynch. Okay. Okay. Fair enough. I will yield back.
    Chairman Chaffetz. I thank the gentleman. We are getting 
close to a vote series, so we want to keep hustling here. We 
are going to recognize Mr. Hice from Georgia for 5 minutes. Mr. 
Carter. I am sorry, my bad. Mr. Carter for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman. Mr. Roth, thank you 
for being here. I want to get at something that is bothering me 
throughout these series of hearings that we have had on this. 
And it seems to be the culture, if you will, of the Secret 
Service about reporting. We have been told, and it has been 
alleged, that the watch commander actually said that he did not 
want to report this, he didn't want to ask for a field sobriety 
test because it would have been a career killer. Is that true?
    Mr. Roth. That is what one of the Uniformed Division 
officers told us, yes, that the watch commander said. The watch 
commander subsequently denied that, for what it's worth.
    Mr. Carter. When he says a career killer, is he referring 
to his career for reporting it or is he referring to their 
career if they had been found guilty? I am not sure----
    Mr. Roth. The sense we got was that was one of the 
motivations for the watch commander not to do any further 
inquiries, because he thought there may be retaliation against 
him. In other words, it would be a career killer for him. 
Certainly consistent with some of the things that we found in 
the 2013 report with regard to a high percentage of people 
failing to report misconduct, believing that either nobody 
would listen, or you would, in fact, be affirmatively 
retaliated against.
    Mr. Carter. Tell me what the policy is. What is the policy 
at the Secret Service when someone does--recognizes or when 
someone is faced with this situation. Are they, you are 
required to report, or is it you better just keep it quiet?
    Mr. Roth. It is certainly not the latter. And in fact, it 
is the DHS policy, it is DHS-wide, that they are required to 
report it to either the Secret Service Office of Professional 
Responsibility or to the Inspector General.
    Mr. Carter. And if you don't report it, what is the 
punishment?
    Mr. Roth. I am not aware at this point what that is.
    Mr. Carter. It would appear to me that that's an important 
component.
    Mr. Roth. Correct. Correct. As I said, the Inspector 
General's office isn't involved in specific discipline cases. 
That's the Secret Service's responsibility. So what we do is we 
engage in this fact-finding and then hand it over to the Secret 
Service to do exactly what you suggest.
    Mr. Carter. Okay. I am still a little disappointed, not in 
you, but just in that--it would appear to me that that would be 
cut and dry.
    Mr. Roth. Sure.
    Mr. Carter. Let me ask you about the two agents who were 
involved. When they arrived at that White House complex, the 
officers that stopped them asked them where are you coming 
from.
    Mr. Roth. Right.
    Mr. Carter. And their answer was?
    Mr. Roth. Secret Service headquarters.
    Mr. Carter. And that turns out to be a blatant lie.
    Mr. Roth. That is not, in fact, true, correct.
    Mr. Carter. Okay. Then what is the consequences of that? 
Look, we teach our children there are consequences to actions. 
This was an action. What is the consequence?
    Mr. Roth. Sure. There is a Secret Service table of 
penalties that talks about the range of consequences for 
specific things. And I can go through the specific ones with 
regard to give you an example.
    Mr. Carter. I appreciate that, and I understand what you 
are trying to do. But let me ask you this: What is going to 
happen to them?
    Mr. Roth. There is a process that's in place that the 
Office of Integrity for the Secret Service runs, which is the 
deputy of the Office of Integrity will write up, I assume take 
a look at our report and supporting materials that we have 
produced, and determine whether or not discipline is warranted. 
If he does, he will write up what is functionally a charging 
letter and give that to the individuals who are involved here, 
Connolly and Ogilvie.
    They have due process rights under the law. They have the 
ability to appeal it to the Integrity officer, as well as, if 
the consequences are severe enough, to the Merit Systems 
Protection Board.
    Mr. Carter. Within those written laws, is one of the 
options to go ahead and retire?
    Mr. Roth. I am not sure. I mean, certainly, you can only 
discipline people who are Federal employees. If somebody leaves 
the Federal service, then there is no discipline to impose 
because the most discipline you can impose is to throw them out 
of the Federal service.
    Mr. Carter. Does it go on their permanent record?
    Mr. Roth. Yes, it would.
    Mr. Carter. Is that shared with a prospective employer in 
the future? If one of them goes to get--you know, in the 
private sector, do you tell them, okay, this is what happened? 
Or do you just tell them, no, they were employed here from this 
day to this day?
    Mr. Roth. I am not 100 percent sure. I think in the 
instance of these two individuals, I think a Google search is 
going to take care of that.
    Mr. Carter. Obviously in this.
    Mr. Roth. Right. But I am not sure. That's an area of 
employment that I that I just don't have.
    Mr. Carter. I understand. But my point is, the concern that 
I have is just with the general culture that exists in the 
Secret Service at this time.
    Mr. Roth. I certainly share that concern.
    Mr. Carter. Absolutely. Thank you, Mr. Chairman. I yield 
back.
    Chairman Chaffetz. Glad to see Mr. Carter coming in under 
time. I appreciate it. I will now recognize the gentleman from 
Pennsylvania, Mr. Cartwright, for 5 minutes.
    Mr. Cartwright. Thank you, Mr. Chairman. And Chairman 
Chaffetz, I want to thank you particularly for mentioning the 
valor that is routinely shown by agents of this Secret Service, 
in particular and especially a young man that you mentioned 
from Scranton, Pennsylvania, in my district. Today, the U.S. 
Secret Service is proud to note that its own Sergeant 
Technician, William Uher, from Scranton was presented by DHS 
Secretary Jeh Johnson the Secretary's award for valor, which is 
awarded for displays of exceptional courage. Of course as the 
chairman mentioned, young Mr. Uher actually pulled an accident 
victim from the Baltimore-Washington Parkway, an accident, 
pulled a victim from a burning vehicle. And it was later 
determined that that victim would have been unable to extricate 
himself without William Uher's help.
    So we are exceptionally proud of William Uher in 
Pennsylvania today. We are also proud for him coming in 30th in 
the Scranton half marathon last month, covering 13.1 miles in 
less than an hour-and-a-half. I wish I could do that.
    Mr. Roth, we are here to talk about failures of the Secret 
Service, though. And it's a dour duty that you have to talk 
about some of the downsides of things that we've seen in the 
Secret Service. Your report concludes, ``Both Connolly and 
Ogilvie had a duty to report the incident to their superiors, 
but did not do so.'' Is there a policy requiring them to self-
report incidents of this nature?
    Mr. Roth. Yes, there is.
    Mr. Cartwright. Can you explain the policy?
    Mr. Roth. Sure. And I am simply reading from the manual 
that the Secret Service has. And it says, ``Any incident in 
which an employee of the Secret Service is involved which may 
be the cause of publicity or inquiry from others must be 
immediately reported to the employee's supervisor. The range of 
incidents which might occur is so great it is not possible to 
enumerate them. Each employee must judge when, in his or her 
opinion, the matter may or could be given publicity in the 
newspaper or other media, or may be the subject of inquiry.'' 
And it goes on. But that gives the gist.
    Mr. Cartwright. All right. Now, you found that other 
officials within the agency knew about the incident and failed 
to alert senior leadership. In particular, you found, ``Both 
Uniformed Division Deputy Chief Dyson and Uniformed Division 
Chief Kevin Simpson were notified that night that two agents 
had been drinking and had driven into an evacuated area, and 
each could have reported the incident.'' Is that correct?
    Mr. Roth. That's correct.
    Mr. Cartwright. And why didn't they report the incident?
    Mr. Roth. We asked them that question. Their answers were 
twofold, or at least for Deputy Chief Dyson it was that he had 
spoken to Connolly twice, and Connolly had said that he would 
self-report. Dyson believed that it was better for Connolly to 
self-report than for him to report. With regard to the chief, 
he said, one, that he believed Connolly would report, and two, 
he said it was not his job to report misconduct on the behalf 
of agents, but rather just misconduct on behalf of Uniformed 
Division officers.
    Mr. Cartwright. Who should Deputy Chief Dyson and Chief 
Simpson have reported to?
    Mr. Roth. The Special Agent in Charge of the Presidential 
Protection Division, or the Office of Professional 
Responsibility, or the Inspector General.
    Mr. Cartwright. All right. Now, according to your report, 
Chief Simpson is the most senior Secret Service official who 
was aware that Mr. Connolly had been drinking when he and Mr. 
Ogilvie drove into the evacuated area. What was his explanation 
for Chief Simpson failing to report this information to anyone 
else?
    Mr. Roth. Again, what he said was he did not report the 
incident because he did not believe it was his job to do so, 
and assumed that Connolly was going to self-report.
    Mr. Cartwright. Well, I don't think there is any acceptable 
reason for failing to report a clear incident of misconduct of 
this nature. The Secret Service has to make it clear that 
reporting misconduct is not optional. Employees are required to 
report potential misconduct right up the chain of command. Mr. 
Roth, I thank you for your important work on this matter. And I 
yield back, Mr. Chairman.
    Chairman Chaffetz. Thank you. We will now recognize Mr. 
Meadows of North Carolina for 5 minutes.
    Mr. Meadows. Thank you, Mr. Chairman. And thank you, Mr. 
Roth, for your work. Please thank your staff as well. It was 
timely, quick. I appreciate your frank and direct answers. I 
especially appreciate that because that's not always the case. 
And so I want to give credit where credit is due. I do want to 
follow up a little bit on some of the questions that have been 
asked with regard to the policy, the alcohol policy that is 
either known or unknown. And I think in your testimony you said 
that really most people are not aware of the DHS policy. Is 
that correct?
    Mr. Roth. At the time they were not aware. Since this 
incident, there have been steps to----
    Mr. Meadows. Because that doesn't seem to jibe with what 
whistleblowers have told us, and the fact that you can find it 
on your Web site, maybe you have to look for it a little bit, 
but I mean it's pretty--so why would they not know about that? 
Is it just willful ignorance, or is it the eighth floor not 
stressing the policy, or what? Why would they not know that?
    Mr. Roth. You know, it's a matter of, I think, both 
publicizing it and educating individuals about it. But, for 
example, we interviewed Ogilvie's direct supervisor, who didn't 
know what the policy was.
    Mr. Meadows. Let me go a little bit further then, because 
there is a policy that everyone is aware of, and I believe it's 
called the 10-hour rule.
    Mr. Roth. Correct.
    Mr. Meadows. So we have this receipt that would indicate 
that there were a number of people that were drinking and 
possibly reporting. Would they not have been violating if they 
reported that 10-hour rule?
    Mr. Roth. We looked at that issue, specifically with 
Ogilvie and Connolly. The bar tab was closed out at 10:47, 
roughly. They entered the E Street gate slightly before 11 p.m. 
So they had finished drinking before 11 p.m. Their duty hours 
started at 9 a.m. the next day. So they may have----
    Mr. Meadows. What about others? Obviously, it was a pretty 
big party.
    Mr. Roth. Correct. What we found, though, or at least by 
the preponderance of the evidence, that the four individuals 
who were there were the last to leave. So there wasn't anybody 
else left.
    Mr. Meadows. All right. So it sounds like you have been 
pretty thorough, but we need to reemphasize that. Let me tell 
you the reason why I ask.
    Mr. Roth. Sure.
    Mr. Meadows. Because on the way here I got two calls from 
random agents that I couldn't name because they are afraid to 
divulge who they are, but literally within an hour of this 
hearing, letting me know of all kinds of problems, of the 
expectation of Secret Service agents to actually put liquor in 
the rooms of supervisors as they travel. That if they don't do 
that, it's frowned upon. GS-15s that have been caught 
inappropriate with females, and yet still, you know, leaving 
ammo or guns behind. I mean, I am hearing all kinds of things. 
And if I am a Member of Congress hearing this, are you hearing 
the same kinds of things? Or should we report them to you so 
that you can investigate? Because it's troubling. We have got 
this culture of, you know, from the most elite protective 
service in the world, and yet it seems like I am getting calls 
almost daily from different people. That's a problem.
    Mr. Roth. By all means, you should encourage them to 
contact us. We are going to take this stuff seriously, as we 
have with this incident, as we have, for example, with the Bush 
residence incident, the other look-backs that we are doing on 
these security issues that we are continuing to look at. And I 
really think that the only way that the culture is going to 
change is if we can demonstrate, we can prove that, in fact, we 
are going to take these things seriously and do something about 
it.
    Mr. Meadows. So I have your commitment here today that you 
not only are going to take this incident, but you are going to 
look forward. And if we give you additional things, or if other 
agents give you a number of other potential things to look at, 
you will take them seriously and that you are 100 percent 
committed to rooting out the problems that we have within the 
agency. Is that correct?
    Mr. Roth. Absolutely.
    Mr. Meadows. Absolutely. Good. I know we are about to have 
votes, so I am going to yield back the balance of my time.
    Chairman Chaffetz. Thank you. We will now recognize Mrs. 
Watson Coleman of New Jersey for 5 minutes.
    Mrs. Watson Coleman. Thank you very much, Mr. Chairman. 
Thank you, Mr. Roth. I want to ask you a question. The Secret 
Service division or component is a component of DHS, right?
    Mr. Roth. Correct.
    Mrs. Watson Coleman. So do you think that it makes better 
sense that there are department-wide policies regarding such 
important things as opposed to component-wide policies?
    Mr. Roth. It's not an issue that I have really looked at or 
thought about. I mean, there is certainly a facial validity to 
have a uniformity across all of DHS, which there clearly is not 
right now.
    Mrs. Watson Coleman. We hear that in the other committee 
that I am on. According to your memorandum of understanding 
between the Secret Service and your office, certain categories 
of misconduct must be referred to you.
    Mr. Roth. Correct.
    Mrs. Watson Coleman. So did what happen on March 4 
constitute something of that level?
    Mr. Roth. Yes, it did.
    Mrs. Watson Coleman. And in your estimation, who should 
have reported it? How many people? At what level? You know, 
what are those titles? This doesn't fall on one person's 
responsibility, right?
    Mr. Roth. Correct. Correct. And the duty to report it to 
us, to the Office of Inspector General, is the Office of 
Professional Responsibility within Secret Service. So in other 
words, if they get a complaint that, you know, talks about 
somebody who is a GS-15 or above and other sort of categories 
of incidents, they have a duty to report it to us. So once they 
hear of something, they must report it to us, and then we make 
some decisions as to whether we will take it or not. 
Independent of that, of course, is the duty that all DHS 
employees have of reporting suspicions of wrongdoing.
    Mrs. Watson Coleman. So I may have missed some of this, 
because some of it is getting a little bit confusing for me. 
This entity that should have reported to you is professional--
--
    Mr. Roth. Office of Professional Responsibility. It's the 
internal affairs group within the Secret Service.
    Mrs. Watson Coleman. How soon after the March 4 incident 
did it know of it?
    Mr. Roth. They knew about it on March 9.
    Mrs. Watson Coleman. On March 9. And you were informed of 
it on?
    Mr. Roth. March 9.
    Mrs. Watson Coleman. By them?
    Mr. Roth. Correct.
    Mrs. Watson Coleman. And Mr. Clancy was informed of this on 
March 9 also?
    Mr. Roth. Correct.
    Mrs. Watson Coleman. Mr. Clancy did not start an 
investigation of his own at the same time that you all were 
going to take this on?
    Mr. Roth. That's correct.
    Mrs. Watson Coleman. Is that the usual operating procedure, 
where if you are going to do it, the agency is not going to 
conduct?
    Mr. Roth. Exactly. Only one group can conduct an 
investigation. Otherwise, you have people tripping all over 
each other. So once there is a decision made, for example, for 
us to take it, then everybody has to step back and allow us to 
do our investigation.
    Mrs. Watson Coleman. So if we were going to focus in on who 
or what level we believe is the biggest problem here, other 
than the self-reporting up the chain of command, where would 
that be?
    Mr. Roth. Sure. I think the point of failure was the senior 
management within the Uniformed Division who knew of it and did 
not report it to, for example, Director Clancy or to the Office 
of Professional Responsibility.
    Mr. Roth. Is that the watch commander?
    Mr. Roth. No. The watch commander reported it up his chain 
of command to, for example, to the deputy chief of the 
Uniformed Division. Additionally, there was a Special Agent in 
the JOC, the Joint Operations Center, who was aware of what 
went on. She certainly could have and probably had a duty to 
report that as well.
    Mrs. Watson Coleman. I am going to close also, because I 
know that we are running late. But I want to associate myself 
with something that Mr. Hice said. I agree with him that you 
cannot--I don't care how long you work in a public service, it 
can be 5 years, it could be 15 years or 20 years, but if you 
are found to have done something that is as egregious as we 
think this is, you ought not be able to just walk away with 
your--the benefits that you had associated with being a good 
public servant. There needs to be some consequences. You ought 
not to just be allowed to walk away and say I retire because 
you can.
    Thank you very much, Mr. Roth. Thank you, Mr. Chairman.
    Chairman Chaffetz. Thank you. I now recognize Mr. Russell 
for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman. And thank you, Mr. 
Roth, for your tireless investigations and trying to make our 
Department of Homeland Security better. It is appreciated. 
There is a lot of discussion back and forth on this incident 
about vague Secret Service policy regarding drinking alcohol 
and driving. I guess my take on it is a little more simple. 
Would driving through a marked potential crime scene be 
acceptable performance off duty, either sober or inebriated?
    Mr. Roth. Neither, sir.
    Mr. Russell. Would entering the White House complex buzzed 
or inebriated be considered acceptable off-duty behavior?
    Mr. Roth. No.
    Mr. Russell. The second in command who was involved with 
this incident, what kind of public confidence does it instill 
when that occurs that we can protect the President of the 
United States?
    Mr. Roth. Well, I share your concern, particularly given 
the fact that he was responsible for all the operations within 
the White House complex.
    Mr. Russell. What kind of example do you think that that 
sets to the agents and also the seriousness of the duties that 
ought to be performed, whether on duty or off, knowing that any 
of them at any moment could be called upon to protect the 
leader of the free world?
    Mr. Roth. And that is something we wrestled with with 
regard to the fact that Special Agents are, in fact, subject to 
recall at a moment's notice. In fact, that's one of the reasons 
they have government cars that they can drive home at night is 
because at any moment, they could be called out.
    To give you a good example of that is the two Philadelphia 
agents who at 2 in the morning had to sort of respond to the 
home of the woman who had dropped the package. They didn't know 
that evening that they were going to get that call and have to 
drive in the pouring rain to this woman's house. So it's very, 
very troubling.
    Mr. Russell. Given that sense of duty, and also the arduous 
selection process to elevate an agent to this level of duty, 
this is the highest performance level that Secret Service 
agents can perform, what discipline has Agent Connolly or Agent 
Ogilvie received? And if none, what charges are pending?
    Mr. Roth. The way the process works is there is an 
investigation that's done, which is now completed. As of last 
week, we transmitted all of our materials to the Secret Service 
to their Office of Professional Responsibility and their Office 
of Integrity, which then manages that program. And what 
happens, as I understand it, is that there would be the deputy 
within the Office of Integrity who would then assess the 
materials and basically write a charging document, if that's 
the right word, proposing certain discipline.
    Mr. Russell. When I was a commander in the military, often 
on an IG investigation we would receive recommendations of 
courses of action. What would you recommend?
    Mr. Roth. Well, they have a table of penalties.
    Mr. Russell. I have read through it. What would you 
recommend, sir?
    Mr. Roth. Well, I think this is very, very serious conduct. 
I think the fact that it has caused me to expend all these 
resources, it has caused the director of the Secret Service to 
distract himself from his important business to have to testify 
before here, appropriately so, I think it is very, very 
detrimental to the effective functioning of the Secret Service.
    Mr. Russell. Well, I think all of America would agree. And 
should the American public, in light of this, have more 
confidence or less in our government's ability to protect our 
President?
    Mr. Roth. I am hoping that this process will create a 
situation in which people will have more confidence that we are 
able to acknowledge our problems and fix our problems. If it 
doesn't get resolved, then I would say there would be less 
confidence.
    Mr. Russell. And so we had a similar answer after 
Cartagena, after drones, after barricades, after, after, after, 
after. We are talking about the President of the United States. 
At what point do you see, and what is your estimation--you have 
been handling investigations a long time--are they taking this 
serious, and will they make the necessary changes that the 
American public demands?
    Mr. Roth. I have had a number of conversations with 
Director Clancy about this. I think he is committed to doing 
it. I will have to say that they didn't get into this situation 
overnight, and they are not going to get out of it overnight. 
But do I think he is making the right moves? I absolutely do.
    Mr. Russell. Well, I hope so. And I think that the Director 
can exhibit that leadership and even reach down into 
organizations that are going awry. And my hope is that the 
Director would do that, and also that we would see a shape up 
rather quickly, because should we have the President harmed, 
all of America would not be able to forgive itself. Thank you, 
sir, for your testimony today. Thank you, Mr. Chairman. I yield 
back.
    Chairman Chaffetz. I thank the gentleman. I am going to now 
recognize myself for 5 more minutes. You mentioned that there 
were others that had been drinking that evening that went back 
to--where did they go? Did they go to the White House or did 
they go to the operations center?
    Mr. Roth. I think they would have gone back to Secret 
Service headquarters, but I am not 100 percent sure, as I sit 
here, exactly who that would have been. But I do recall in some 
of the interviews the fact that what happened is they would 
have a beer and a sandwich, say good-bye, and then go back to 
work.
    Chairman Chaffetz. But this incident of this night we are 
talking about, some of the people in addition to Ogilvie and 
Connolly went back to work. Correct?
    Mr. Roth. That's my understanding.
    Chairman Chaffetz. How many people? Do you know?
    Mr. Roth. I don't have that information.
    Chairman Chaffetz. And that's the concern. This isn't just 
one person making a rookie mistake. You have two people here, 
Mr. Connolly with 27 years of experience, Mr. Ogilvie with 19 
years of experience, some 46 years of experience. Are you 
telling me that they didn't know that it's wrong to drink? 
Look, it's not right to drink alcohol and work the french fry 
machine at McDonald's. It is certainly not right to drink and 
go into the White House, or the White House compound, or drive 
a vehicle when you are there to protect the President and the 
First Family. These people have guns. They have trust. They 
have people that they have to--they can blow past and say look, 
I am your supervisor, you are letting me through. And that's 
what is happening here.
    And then when you did have that poor officer, you got 
officers there that are trying to do the right thing, and it is 
your testimony that these very senior people, with badges, 
guns, and alcohol on their breath told them, oh, I just came 
from headquarters. They didn't mention that they had come from 
the bar, did they?
    Mr. Roth. No.
    Chairman Chaffetz. Was that a lie?
    Mr. Roth. It would appear to be that way, yes.
    Chairman Chaffetz. So it is a lie?
    Mr. Roth. Yes.
    Chairman Chaffetz. That's the problem is they are lying to 
themselves, because they did take a government vehicle. They 
should know after 46 years of experience that the reason they 
are doing it on taxpayer dollars is that they are there to 
respond at a moment's notice. We never know when something is 
going to happen. And this is the senior-most--she is these are 
the senior-most people in charge of protecting the White House. 
They are always supposed to be ready to go at a moment's 
notice. That's why they took government vehicles. They were 
taking advantage of the situation and making taxpayers pay for 
their little rides there to the bar. You know, that bar is so 
low. The only thing that is raising on the bar is their bar 
tab. And it has to change.
    I appreciate the good work in ferreting this out. How long 
has Homeland Security and the Secret Service had your report? 
When did they get your first draft?
    Mr. Roth. They received my first draft--or this draft, May 
6. We supplied the underlying materials either in the middle or 
late last week.
    Chairman Chaffetz. And yet there has been no consequence 
yet. We get reports that maybe one person is going to retire. 
Who knows when that is going to be. What discretion does 
Secretary Clancy have in revoking their security clearance?
    Mr. Roth. I don't have that information.
    Chairman Chaffetz. But he could revoke their security 
clearance immediately, correct?
    Mr. Roth. I am not sure what the process is for revocation 
of security clearances. I know that there is a process that's 
involved, but I don't know what it is.
    Chairman Chaffetz. They could be put on nonpaid leave. 
Correct?
    Mr. Roth. That's my understanding.
    Chairman Chaffetz. Do you think this is an aggravated 
situation?
    Mr. Roth. My understanding is that nonpaid leave--
unfortunately, Congressman, you are getting into areas of 
employment law that are simply beyond my competence. And I 
apologize for that.
    Chairman Chaffetz. No, no, I think that's a fair situation. 
But as Mr. Russell just aptly pointed out, even if they weren't 
drunk and they interrupted a potential bomb scene, that's 
totally unacceptable. If they lied to somebody who also works 
for the Secret Service, that is unacceptable behavior. And if 
you look at what happened in the email chain, trying to protect 
themselves and making sure that the word didn't get out, there 
is plenty of evidence.
    This is a pivotal moment for the Secret Service. This is 
the time when we find out what Director Clancy and Secretary 
Johnson, if they have the guts to do what needs to be done. 
Because in my opinion, these people should be fired. Today they 
should lose and have their security clearances revoked. That 
should have happened a long time ago. And those that didn't 
report this, I have got a list here of people who, at some 
degree or another, have, at least according to your report, 
violated policy that could lead to their potential removal. 
That's Marc Connolly, George Ogilvie, Kevin Simpson, Alfonso 
Dyson, and perhaps and probably, Michael Braun.
    At the very least, those people, they need to be taken to 
the woodshed, and they should lose their security clearances, 
they should lose their job, and if I was the President of the 
United States, I would never want to see them again. I don't 
want to see them there. We got thousands of people, like the 
gentleman who was recognized for his valor, that should be 
protecting the President of the United States. But if you are 
going to go consume alcohol and then show up at the White 
House, disturb a crime scene, get out of here. Go home. Go find 
another job. Because you know what, you wouldn't be able to 
work at my McDonald's. You wouldn't even be able to run the 
french fry machine, because you are not going to drink and show 
up to work, and you are not going to do that if you work for 
the Secret Service.
    That's what is happening. And they can continue to 
investigate and look at--your report is very conclusive. It was 
independent in its nature. And it's time for this Director and 
this Secretary to take some definitive, conclusive action and 
fix the problem and send a message to the rest of the 
workforce, we are not going to put up with anybody who is 
showing up to work drunk, inebriated, lying, trying to cover 
up, not reporting. I mean, how many things went wrong here 
today? But that's my opinion. I will yield to the ranking 
member, Mr. Cummings.
    Mr. Cummings. I want to thank you, Mr. Roth. For anybody 
who just tuned in, I didn't want them to think that he was 
talking to you. You have done a great job. Really. And we 
really do appreciate your staff. And I know you had to pull 
together a lot of people in a little bit of time. But we really 
do appreciate it. And I agree with the chairman. Somebody asked 
me just a few minutes ago, how are we going to straighten this 
out? And I said we are going to have to keep the pressure up. 
But we cannot keep the pressure up without the kind of 
information that you all have provided us. And I am sure that--
and I am hopeful that, Mr. Chairman, that when Mr. Clancy comes 
before us, he will have a report letting us know what 
disciplinary actions he has taken. But again, I want to thank 
you. We really do appreciate everything you have done. We also 
appreciate you working with us. From the very beginning, you 
have just been great, and your staff. So thank you.
    Chairman Chaffetz. I totally concur. My frustration is not 
with you, Mr. Roth, or the Inspector General's office. Without 
that information, we would still be left in the dark. And what 
you and your staff have done, good hard work, good 
investigative work, we are very appreciative on both sides of 
the aisle. And we do appreciate it. It's now our responsibility 
to hold the administration accountable and make sure that they 
fix the problem so we can stop having hearings like these. But 
we do wish you Godspeed. Thank you for this work, and look 
forward to the other reports that you are still working on. 
This committee stands adjourned.
    [Whereupon, at 3:43 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
